              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report
 Emergency Medical Coordination
 Memorandum of Agreement at
 Brookhaven National Laboratory




DOE/IG–0594                                 March 2003
                                 Department of Energy
                                      Washington, DC 20585

                                        March 3 1,2003




FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Report on Inspection of “Emergency Medical
                         Coordination Memorandum of Agreement at Brookhaven National
                         Laboratory”


BACKGROUND

Because of possible exposure to radioactive and hazardous materials and the potential for
industrial accidents at Department of Energy (DOE) sites, the Department has established
formalized agreements with local emergency medical providers. These arrangements are
generally documented through memoranda of agreements (MOAs). These documents detail the
mutual understanding between DOE and the offsite emergency medical provider with respect to
capabilities, specific support, and procedures for ensuring an integrated and effective response,
including specific procedures for receipt of victims of radiation accidents.

The objective of this inspection was to determine if the Brookhaven National Laboratory
(Brookhaven) effectively implemented and adequately managed its emergency medical
response agreement with Stony Brook University Hospital (Stony Brook) as documented in an
MOA, dated May 11,1999.

RESULTS OF INSPECTION

Despite the potential impact on worker and community safety, Brookhaven had not fully
implemented the terms of its MOA with Stony Brook. Brookhaven was obligated under the
MOA to provide Stony Brook with annual training and decontamination equipment and supplies
needed for the care of victims of radiation accidents. Brookhaven did not provide annual
radiological training to Stony Brook personnel in Fiscal Year 2001, and had not provided the
training for Fiscal Year 2002 as of the time of our site visit in June 2002. Also, of greatest
concern was the fact that as of the time of our site visit, Brookhaven officials had not met with
hospital officials to determine what type of decontamination equipment and supplies should be
provided to Stony Brook for the care of victims of radiation accidents.

We found the MOA had not been updated or reviewed since it was signed in May 1999. The
MOA contained incomplete and outdated information. We also found that key emergency
response management documents, including Brookhaven’s Emergency Plan, Hazard




                                   @    Printed with soy ink on recycbd paper
Assessment, and MOA, had not been reviewed or approved by DOE because Brookhaven
Science Associates had not routed the documents to DOE for review and approval.

We recommended that the Department take appropriate steps to:

   0   ensure that the Brookhaven MOA is fully implemented;

   0   ensure that the MOA is periodically reviewed and appropriately updated; and,

   0   ensure that DOE has the opportunity to review/approve the MOA and other emergency
       management documents.

MANAGEMENT REACTION

Management concurred with the recommendations.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Director, Office of Science
    Manager, Chicago Operations Office
    Manager, Brookhaven Operations Office
    Acting Director, Office of Emergency Management, Office of Emergency Operations
    Manager, Policy and Internal Controls Management (NA-66)
    Team Leader, Audit Liaison Team (ME-1.1)
EMERGENCY MEDICAL COORDINATION
MEMORANDUM OF AGREEMENT AT
BROOKHAVEN NATIONAL LABORATORY

TABLE OF
CONTENTS



             OVERVIEW

             Introduction and Objective………………………………….. 1

             Conclusions and Observations…………………………….. 3


             DETAILS OF FINDINGS……………………………………. 4

             Training and Equipment…………………………………….. 4

             MOA Information and Review……….……………………… 5

             Emergency Plan and MOA Not Approved by DOE.……… 6

             Emergency Standard Operating Procedure………………. 7


             RECOMMENDATIONS…………………………….……….. 7


             MANAGEMENT COMMENTS…..…………………………. 8


             INSPECTOR COMMENTS…………………………………. 8


             APPENDIX

             Scope and Methodology……………………………………10
Overview

INTRODUCTON     Brookhaven National Laboratory (Brookhaven) occupies 5,300
AND OBJECTIVE   acres in Suffolk County on Long Island, New York. It has several
                accelerators, a facility for processing radioactive waste, and a
                variety of research support buildings containing various
                radioactive materials. In addition, Brookhaven has nuclear
                reactors that are no longer operational, and are in various states of
                decommissioning. Given these radiological activities at
                Brookhaven, there is a potential for radiological emergencies
                requiring off-site assistance.

                Department of Energy (DOE) Order 151.1A, “Comprehensive
                Emergency Management System,” provides a framework for DOE
                sites and facilities to develop and coordinate all emergency
                planning and response, including coordination of offsite
                emergency medical support. When a site identifies the need for
                support from offsite medical facilities, DOE Order 151.1A requires
                documented arrangements with offsite facilities to accept and treat
                victims of radiation accidents.

                Arrangements for offsite emergency medical support are
                commonly documented through memoranda of agreements
                (MOAs). MOAs detail the mutual understanding between the site
                and offsite emergency medical provider with respect to
                capabilities, specific support, and procedures for ensuring an
                integrated and effective response, including specific procedures for
                receipt of victims of radiation accidents.

                MOAs that address offsite emergency assistance are part of a site’s
                required Emergency Plan. Such plans provide detailed procedures
                for responding to emergencies. The basis of the Emergency Plan is
                the site Hazard Assessment, which lists all the hazards at the
                facility. The Hazard Assessment provides the technical basis from
                which the Site can plan and develop its site-wide response to
                emergencies.

                Stony Brook University Hospital (Stony Brook) provides
                emergency medical services to Brookhaven. Brookhaven Science
                Associates, Brookhaven’s management and operating contractor,
                and Stony Brook signed an “Affiliation Agreement” dated
                May 11, 1999, for emergency medical services (hereinafter
                referred to as the MOA). The MOA obligates Brookhaven to
                provide annual training to the Emergency Department and other
                staff at Stony Brook and to provide mutually agreed upon



Page 1                                         Emergency Medical Coordination
                                               Memorandum of Agreement at
                                               Brookhaven National Laboratory
         decontamination equipment and supplies necessary to establish a
         designated treatment area at Stony Brook for the care of victims of
         radiation accidents. Reciprocally, the MOA obligates Stony Brook
         to accept victims of radiological accidents from Brookhaven.

         The objective of the inspection was to determine whether
         Brookhaven implemented and adequately managed the MOA with
         Stony Brook. In addition, because the MOA is part of
         Brookhaven’s Emergency Plan, which correlates to the site Hazard
         Assessment, our inspection included a review and analysis of those
         documents.




Page 2                                                           Overview
CONCLUSIONS       We concluded that Brookhaven has not fully implemented
AND OBSERVATONS   its MOA with Stony Brook. Although Brookhaven provided
                  annual radiological training to Stony Brook during Fiscal Years
                  1999 and 2000, Brookhaven did not provide annual radiological
                  training to Stony Brook personnel in Fiscal Year 2001 per the
                  MOA, and had not provided the training for Fiscal Year 2002 as of
                  the time of our site visit in June 2002. Consequently, some
                  medical personnel may have lacked the training to appropriately
                  treat victims of radiation accidents during an emergency. Also, as
                  of the time of our site visit, Brookhaven officials had not met with
                  Stony Brook officials to determine what type of decontamination
                  equipment and supplies should be provided to Stony Brook for the
                  care of victims of radiation accidents, and no equipment or
                  supplies had been provided.

                  We found the MOA had not been updated or reviewed since it was
                  signed in May 1999, was incomplete and contained outdated
                  information. We also found that key emergency response
                  management documents, including the site Emergency Plan, the
                  site Hazard Assessment, and the MOA with Stony Brook, had not
                  been reviewed or approved by DOE. DOE Order 151.1A requires
                  DOE Operations/Field Managers to approve site Emergency Plans,
                  which should include copies of agreements, such as MOAs, and
                  ensure that they are reviewed annually and updated as necessary.




Page 3                                            Conclusions and Observations
Details of Findings

Training and          The MOA between Brookhaven and Stony Brook requires
Equipment             Brookhaven’s Radiation Monitoring Dosimetry staff and
                      Occupational Medicine professionals to provide annual training for
                      the Emergency Department and others at Stony Brook, with
                      respect to the proper care and treatment of victims of radiation
                      accidents.

                      We interviewed key Brookhaven Science Associates officials to
                      determine whether Brookhaven had been providing Stony Brook
                      annual training as required by the MOA. In order to provide a
                      thorough response, one of these Brookhaven officials also
                      consulted with a senior Stony Book faculty member.

                      During our on-site inspection, we found that Brookhaven had not
                      provided Stony Brook with any training in Fiscal Year 2001, nor
                      had any been provided for Fiscal Year 2002. The Emergency
                      Services Division had provided training to Stony Brook personnel
                      during Fiscal Years 1999 and 2000, and the Occupational
                      Medicine Clinic had provided training to Stony Brook personnel
                      during Fiscal Year 2000. After discussions with us regarding this
                      issue during June 2002, an Occupational Medicine Clinic official
                      advised that training would be arranged.

                      We discussed our findings regarding the MOA implementation
                      with a key official at Stony Brook. He said that while he was
                      aware of the MOA, he was not familiar with the obligations listed
                      in the MOA. He said that in light of the September 11, 2001,
                      terrorist attacks, implementation of the MOA should ensure that all
                      of his staff were trained in the procedures for the handling and
                      treatment of victims of radiation accidents.

                      Subsequent to the issuance of our draft report, the Brookhaven
                      Area Office informed us that in September 2002, two Stony Brook
                      emergency medical personnel participated in training partially
                      funded by the Brookhaven Radiological Assistance Program and in
                      December 2002, Brookhaven and Stony Brook conducted the
                      required training for Fiscal Year 2003.

                      The MOA also required Brookhaven to provide mutually agreed
                      upon decontamination equipment and supplies to Stony Brook.
                      Through interviews and e-mail correspondence with key DOE and
                      Brookhaven contractor officials, we found that no decontamination
                      equipment or supplies had been provided to Stony Brook and that




Page 4                                                             Details of Findings
                  Brookhaven had not coordinated with Stony Brook to develop a
                  list of required equipment and supplies.

                  During our field visit, responsible Brookhaven Science Associates
                  officials were unaware of any discussions with Stony Brook
                  regarding radiological equipment and could provide no details why
                  this aspect of the MOA was not implemented. Subsequent to the
                  issuance of our draft report, the Brookhaven Area Office informed
                  us that the Emergency Services Division consulted with Stony
                  Brook and determined that Stony Brook has all of the equipment
                  needed to care for victims of radiation accidents.

MOA Information   We found that the MOA had not been reviewed and updated since
and Review        it was signed in May 1999, and that it contained outdated and
                  incomplete information. For example, we noted that information
                  included in the MOA concerning communications was not current.
                  While the outdated and incomplete information could be easily
                  corrected, it was clear to us that in an emergency the ability to
                  facilitate prompt and effective communications between the
                  laboratory and the hospital is essential. Thus, any impediment in
                  this area was of concern.

                  Key Brookhaven Science Associates officials responsible for the
                  review/updating of the MOA said that they had not
                  reviewed/updated the MOA since it was signed in May 1999. This
                  suggested to us that the MOA, important as it was to the safety and
                  health of laboratory workers, was simply not treated as a priority.
                  Also, the MOA states that it is automatically renewed each year
                  unless either party gives written notice that it does not want to
                  renew. We believe that the automatic renewal process contributed
                  to the MOA not being reviewed and updated on an annual basis.

                  We also observed that Brookhaven’s site Emergency Plan requires
                  the inclusion of applicable MOAs as attachments for reference. At
                  the time of our fieldwork, we found that Brookhaven officials were
                  not aware that the MOA was not attached to the site Emergency
                  Plan. Officials speculated that this oversight must have occurred
                  when Brookhaven went to a “paperless” system. Subsequently,
                  when the required annual reviews of the site Emergency Plan were
                  conducted, the MOA was inadvertently excluded.

                  A key Brookhaven Science Associates official, after reviewing the
                  MOA with us, concurred that the MOA contained incomplete and
                  outdated information regarding the method of communication with



Page 5                                                         Details of Findings
                     Stony Brook and the Brookhaven organization responsible for
                     providing the radiological training to Stony Brook. The official
                     indicated that the MOA should be updated.

                     The official also confirmed that the MOA should be included with
                     the site Emergency Plan. The official concurred that the failure to
                     include the MOA with the site Emergency Plan could have
                     contributed to the failure to review the MOA since 1999.

Emergency Plan and   We found that Brookhaven Science Associates had not included
MOA Not Approved     DOE in the approval/concurrence or courtesy copy process
by DOE               regarding the annual review of the site Emergency Plan, which
                     should have included the MOA as an attachment. We also found
                     that Brookhaven Science Associates had not included DOE in the
                     approval/concurrence or courtesy copy process in the annual
                     review of the site Hazard Assessment, the document upon which
                     the site Emergency Plan and MOA were based. In addition, DOE
                     had not taken the initiative to ensure that Brookhaven Science
                     Associates routed the documents for their review/approval.

                     A key DOE official responsible for reviewing site emergency
                     management documents said Brookhaven Science Associates
                     developed the MOA without including DOE “in the loop.” The
                     official acknowledged being unaware of the MOA because DOE
                     was not involved in its development and was not provided a copy
                     for concurrence. The official further said that although
                     Brookhaven Science Associates was required to route the site
                     Emergency Plan, which should have included the MOA as an
                     attachment, through DOE for approval/concurrence during the
                     annual review, Brookhaven had not done so.

                     The DOE official said that although DOE Order 151.1A requires
                     that the Hazard Assessment be reviewed at least annually, it does
                     not specify whether DOE or the contractor is responsible for
                     conducting the review, and does not state that DOE must approve,
                     concur or be provided a copy. The official said that Brookhaven
                     Science Associates had not routed the site Hazard Assessment to
                     DOE for approval/concurrence.

                     DOE Order 151.1A requires DOE Operations/Field Managers to
                     approve the site Emergency Plan and the site Emergency Planning
                     Zones. The DOE official opined that Brookhaven Science
                     Associates should have routed the site Hazard Assessment through
                     DOE for review and approval/concurrence because the Hazard



Page 6                                                             Details of Findings
                      Assessment was the basis for the development of other emergency
                      documents, including the site Emergency Plan and site Emergency
                      Planning Zones. Inspectors noted during this review that DOE
                      Order 151.1A was under revision and that the proposed revision,
                      DOE Order 151.1B, addressed the issue and required
                      Operations/Field Office Managers to approve Hazard Assessments.

Emergency Standard    A key Brookhaven Science Associates official said that the lack of
Operating Procedure   implementation of the MOA was not a concern because of
                      Brookhaven’s development of its Emergency Services Division
                      Standard Operating Procedure (SOP), Number FR-EMS-3.0.1.
                      The official added that the SOP accurately describes the way
                      emergencies will be handled by Brookhaven. The official
                      explained that in the event of an emergency, two of Brookhaven’s
                      trained radiological specialists would go with the ambulance to
                      Stony Brook to provide expertise to Stony Brook’s medical staff.
                      The official further explained that the Brookhaven radiation
                      specialists are issued all of the emergency equipment necessary to
                      treat the victims of radiation accidents and will bring the
                      equipment with them to Stony Brook.

                      We reviewed Brookhaven’s Emergency Services Division SOP.
                      As indicated by the Brookhaven official, the SOP is a site
                      document addressing Brookhaven actions in an emergency. We
                      determined that the SOP describes the process for treating and
                      transporting victims of radiation accidents up to the point of
                      delivery of the victims to Stony Brook. The SOP does not address
                      what will happen once the victims arrive at Stony Brook. The
                      MOA addresses the agreement between Brookhaven and Stony
                      Brook, stipulating that Stony Brook will accept and treat victims of
                      radiation accidents.

                      Accordingly, the SOP does not ameliorate the failure to implement
                      the requirements of the MOA. Rather, the two documents appear
                      complementary and serve to address the process of providing on-
                      site response and off-site treatment for victims of radiation
                      accidents.

RECOMMENDATIONS       We found that Brookhaven had not fully implemented its MOA
                      with Stony Brook and that it had not reviewed or updated it since
                      1999. Further, key emergency response management documents,
                      including the site Emergency Plan, the site Hazard Assessment,
                      and the MOA, had not been coordinated with DOE. The MOA is a
                      critical part of Brookhaven’s site safety preparedness. Site



Page 7                                                              Recommendations
             preparedness is diminished if the MOA is not fully implemented,
             the results of which could mean potential health and safety
             shortfalls affecting the workplace.

             We recommend that the Manager, Brookhaven Area Office take
             appropriate steps to:

             1.     Identify the Brookhaven Science Associates divisions
                    responsible for implementing the MOA, and ensure that the
                    MOA is fully implemented.

             2.     Ensure that the MOA is periodically reviewed and
                    appropriately updated.

             3.     Include DOE in the review/approval process of the MOA
                    and other emergency management documents.

             We recommend that the National Nuclear Security Administration,
             Office of Emergency Management ensure that:

             4.     DOE Order 151.1B, when finalized, contains language
                    similar to the draft language that requires the
                    Operations/Field Office Managers to approve hazard
                    surveys and hazard assessments.

MANAGEMENT   In written comments dated December 24, 2002, the Manager,
COMMENTS     Brookhaven Area Office, agreed that there are issues related to the
             MOA that require Brookhaven’s attention and corrective action.
             The Manager concurred with recommendations 1, 2, and 3, but
             said that recommendation 4 should be eliminated or modified
             because the revision to DOE Order 151.B has been cancelled and
             will not be implemented. The Manager stated that Brookhaven
             conducted a training exercise with Stony Brook on December 4,
             2002, which constitutes the required training for Fiscal Year 2003.
             In written comments dated January 24, 2003, the Manager
             provided additional details regarding this training. The Manager
             also stated that we should ensure that certain statements in the
             report are factually accurate.

INSPECTOR    Management’s comments were responsive to the
COMMENTS     recommendations. General comments provided by management
             have been incorporated into the report where appropriate. All
             statements in the report have been verified as factually accurate.
             Regarding recommendation 4, the Office of Emergency



Page 8                               Management and Inspector Comments
         Management, which is responsible for DOE Order 151.B, advised
         that the proposed revision was removed from the Review and
         Comment System after the Office of Emergency Management was
         transferred from DOE, Office of Security, to the National Nuclear
         Security Administration (NNSA) and will not be revised until
         issues regarding the emergency management roles and
         responsibilities within DOE and NNSA are resolved.
         Nevertheless, the Office of Emergency Management concurred
         with the recommendation and advised that it would ensure that the
         order, when finalized, would contain language similar to the draft
         language that requires the Operations/Field Office Managers to
         approve hazard surveys and hazard assessments. Accordingly, we
         re-directed the recommendation from the DOE, Office of Security,
         to the NNSA, Office of Emergency Management, and
         recommendation 4 remains unchanged.




Page 9                          Management and Inspector Comments
Appendix

SCOPE AND     Fieldwork for this inspection was completed in September 2002.
METHODOLOGY   We reviewed the memorandum of agreement between Brookhaven
              National Laboratory and Stony Brook University Hospital, as well
              as related emergency management documents.

              To accomplish our inspection objectives, we conducted an
              entrance and exit conference at Brookhaven National Laboratory,
              and interviewed key DOE and contractor officials. We also
              reviewed reports, related DOE orders and guides, Brookhaven’s
              Standard Operating Procedure, and other related documents
              concerning Brookhaven’s management of the MOA.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                               Scope and Methodology
                                                                    IG Report No. DOE/IG-0594

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585


                                    ATTN: Customer Relations
If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
